No.

IN THE
SUPREME COURT OF THE UNITED STATES

TOI HORN,
ESTATE OF EMMA M. HORN,
E&E FAMILY TRUST,
Petitioner(s)/infant, minor,
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION “FANNIE MAE” et al.
Respondents.

PROOF OF SERVICE

rth

IS

I, Toi J. Horn, do swear or declare that on this date,
, February, 2021, as
Required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery.
The names and addresses of those served are as follows:
Federal National Mortgage Association “Fannie Mae”
c/o Elizabeth Marian Abood-Carroll
ORLANS PC
P.O. Box 5041
Troy, MI 48007
c/o ORLANS PC
PO Box 2548, Leesburg, Virginia 20177

Page 1 of 2

PROOF OF SERVICE

James E. Clarke,
Hugh J. Green,
Shannon Menapace,
Christine M. Drexel,
Brain Thomas,
Seterus, Inc.,
c/o ORLANS PC
PO Box 2548
Leesburg, Virginia 20177
Nationstar Mortgage, LLC, d/b/a Mr. Cooper
c/o PO Box 619098
Dallas, Texas 75261-9741
Tichi Property, LLC
c/o Larry H. Kirsch
402 Long Trail Terrace
Rockville, Maryland 20850
Counsel for alleged Foreclosure Purchaser
Steven H Greenfeld, appointed Trustee
Cohen, Baldinger & Greenfeld, LLC
c/o 2600 Tower Oaks Blvd.
Suite 103
Rockville, MD 20852
I declare under penalty of perjury that the foregoing is true and correct.

ik

Executed on

fa

February, 2021

3T
[Signature)
Page 2 of 2

